Inspection Report I-98-14
Department of Justice
Office of the Inspector General
Inspections Division
Controls Over Certificates of Naturalization (Phase II)
Report Number I-98-14
April 1998
TABLE OF CONTENTS
Transmittal Memorandum
Introduction
Background
Inspection Methodology
Results of the Inspection
Inventory Control
Record Keeping Problems
Weak Management Controls over Requesting and Receiving
N-550s
Operating Procedures
Data Base Errors
Conflicting and Inaccurate Guidelines
Physical and Personnel Security
Security Needed Some Improvement
Lack of Formal Training for Employees
Independent Audits and Oversight
Sample Summary
Conclusion
Recommendations
APPENDIX I Miami District
APPENDIX II Chicago District
APPENDIX III Omaha District
APPENDIX IV Portland, Oregon, District
APPENDIX V Los Angeles District
APPENDIX VI Immigration and Naturalization Service Response to
Draft Report
APPENDIX VII Office of the Inspector General's
Analysis of Management's Response
July 7, 1998
MEMORANDUM FOR DORIS MEISSNER
COMMISSIONER
IMMIGRATION AND NATURALIZATION SERVICE
FROM:
MICHAEL
R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Inspection
of the Controls Over Certificates of
Naturalization (Phase II), Report Number I-98-14
Attached is our final report on the subject inspection.
The objective of our inspection was to assess the management controls over Certificates
of Naturalization (N-550s) at selected Immigration and Naturalization Service (INS)
district offices and their Citizenship USA (CUSA) satellite offices. This is the second of
a two-phase review over such controls. Phase I, Inspection Report Number I-98-02, assessed
management controls at the two INS forms centers at Williston, Vermont, and Bell,
California.
We visited five INS district offices, and reviewed records for the period June 1, 1995,
through June 1, 1997. We also visited a district's CUSA satellite office if it had one. We
selected district offices in Chicago, Illinois; Los Angeles, California; and Miami,
Florida, because they had a high volume of naturalization work and a CUSA satellite
office. We chose Omaha, Nebraska, and Portland, Oregon, which had a low volume of
naturalization work and no CUSA satellite offices.
During the two-year time period covered by our review, the Bureau of Engraving and
Printing shipped 2.8 million N-550s to INS forms centers. The five offices we visited
received 849,000 certificates from the forms centers. Los Angeles received more than 70
percent of the 849,000 certificates. We conducted a physical inventory of certificates
on-hand, and reviewed any documents available to track the disposition of certificates
issued or voided. In addition, we assessed the adequacy of records and physical controls
used to safeguard the N-550s, and reviewed documentation to determine whether accountable
personnel were screened and trained in security measures, as required. The criteria for
assessing management controls were contained in INS Administrative Manual Section 2117 and
the INS Security Officer's Handbook.
At the five offices visited, we verified that the 849,000 certificates sent from the
forms centers to these five offices between June 1, 1995, and June 1, 1997, were received.
However, no district completely followed the prescribed management controls that are
intended to prevent theft or misuse of these forms. We could not verify that INS had
accounted for all N-550s because we were unable to track them as they moved from inventory
to accountable employees to issuance. In addition, the lack of documentation prevented us
from verifying that all N-550s were issued or voided as reported.
We randomly selected 3,084 certificate numbers received or issued by the five district
offices visited. We were unable to verify the disposition of 140 certificates and could
not find supporting documentation for 95 additional certificates reported as voided and
destroyed. If our samples are representative of the universe for each location, we
estimate that, for the five district offices visited, INS may not be able to verify the
disposition for approximately 18,000 certificates and lacks supporting documentation to
verify that about 19,000 additional certificates were voided and destroyed.
From our sample, we also determined that naturalization data for 428 cases was not
contained in INS' Central Index System (CIS). Naturalization data should either be updated
automatically from the revised Naturalization Adjudication Control System (RNACS) or
updated manually in CIS for those INS offices without access to RNACS. If our sample is
representative of the universe and we project our sample, CIS does not contain
naturalization data for about 62,000 cases in these five district offices.
INS is currently in the process of reengineering the naturalization program. However,
until the reengineering is complete and new guidelines are established, INS needs to gain
immediate control over N-550s to ensure they are accounted for and safeguarded. This
includes maintaining accountability records, conducting periodic inventories and audits,
performing daily supervisory reviews, and properly voiding/destroying unusable N-550s.
Specifically, we recommend that INS take action to:
Provide adequate training for personnel accountable for N-550s.
Update Administrative Manual Section 2117, and ensure the Security Officer's Handbook is
in agreement with the Administrative Manual.
Determine the appropriate time interval for periodic inventories and audits, and then
ensure that they are correctly conducted.
Correct mismatch errors between RNACS and CIS, for those offices with access to RNACS,
so current naturalization data is included in CIS.
Directly update CIS, for those offices without access to RNACS, with naturalization data
to ensure CIS is accurate and current.
Eliminate the current manual and time-consuming process of controlling N-550s through
the use of handwritten log books by developing automated systems and processes with the
appropriate management controls to ensure certificate accountability.
Determine the disposition of the 140 unverified certificates and the 95 unconfirmed
voids found during the review.
Assess the risk of theft or misuse for the projected numbers of unverified certificates
and unconfirmed voids to determine whether further investigation is warranted.
We sent copies of the draft report to your office on February 24, 1998, and requested
written comments on the findings and recommendations. Your April 15, 1998, response
addressed each of the eight recommendations. We have attached your response as Appendix
VI.
On the basis of your written comments, we consider all recommendations resolved but
have kept seven of them open pending further action. Appendix VII explains why the
recommendations were not closed and what action is needed.
Please respond to recommendations 5, 7, and 8 by June 1, 1998, and to recommendations
1, 3, 4, and 6 by October 1, 1998. Your response should provide the additional information
requested. If actions have not been completed, please provide proposed completion dates.
Guidance on report follow-up and resolution can be found in Department of Justice Order
2900.10.
We appreciate the cooperation extended to our Inspections Division staff during the
review. If you have any suggestions how we might improve our review process, or if we can
provide you with additional information, please let us know.
Attachment
cc:   Kathleen Stanley
Liaison
Immigration and Naturalization Service
Vickie L. Sloan
Director
Audit Liaison Office
INTRODUCTION
Background
The Certificate of Naturalization (N-550) is an individually numbered document, printed
by the Bureau of Engraving and Printing and issued by the Immigration and Naturalization
Service (INS) to eligible aliens. It is classified as a secure form by INS, and therefore
requires special handling. The N-550 is evidence of United States citizenship, and secures
for its bearer citizen-only rights such as holding a United States passport, voting, and
participating in certain Federally-funded assistance programs. INS Administrative Manual
(AM) Section 2117 and the Security Officer's Handbook furnish the guidelines for shipping,
receipting, storing, issuing, inventorying, and destroying secure forms.
INS field locations must account for certificates from the time they are received until
they are issued to an entitled alien or destroyed. AM Section 2117 prescribes the required
documentation and oversight for controlling and safeguarding certificates.
INS field locations acquire certificates by sending a signed request (Form G-514) to
one of the two INS forms centers. Upon receipt, the forms centers ship the N-550s to INS
field locations by registered-return receipt mail or United Parcel Service. Also included
in each shipment is a Report of Property Shipped-Received (Form G-504) that a district
official signs and returns to the forms center as proof that the contents were received.
INS' primary automated data base, the Central Index System (CIS), identifies the office
location of the individual file of each alien (A-file) who has been assigned an
identifying number (A-number), and contains personal information such as his/her name,
date of birth, date of entry into the country, and immigration status. If an alien has
been naturalized, the date and place of naturalization as well as the certificate number
issued to the alien should appear in CIS. Information in CIS can be accessed in various
ways, including by A-number or by certificate number.
While every INS district office has access to CIS, only selected districts have access
to the Naturalization Adjudication Control System (NACS). NACS is a separate automated
data base of naturalization cases maintained at the district level. NACS is updated at
each phase of adjudication until the applicant is naturalized. NACS was revised early in
1997 (now called RNACS) to allow the system to operate at a faster speed and store more
information. RNACS access has been gradually phased into 30 locations nationwide, with the
priority for installation going to the larger INS offices.
When an N-550 is prepared for an alien, the certificate number is entered into RNACS.
After the naturalization ceremony, final naturalization data, such as date of
naturalization, is entered in RNACS and the case is considered closed for naturalization
processing. Although the certificate number is recorded in RNACS, the case cannot be
retrieved by this number. Closing a case in RNACS includes entering a coding entry that
should automatically update naturalization data to CIS. If an office does not have access
to RNACS, case-closing naturalization data has to be entered manually into CIS to update
the aliens' records.
In Miami, Los Angeles, New York, and Chicago, INS' adjudications service centers
provide some preliminary processing of naturalization cases before forwarding them to the
relevant district. The service centers accept the application fee, check the application
for completeness, locate and obtain the A-file, forward the fingerprint cards to the
Federal Bureau of Investigation, and enter the application information into a format that
updates RNACS.
Inspection Methodology
Our review covered the period June 1, 1995, through June 1, 1997. During this period,
the growing emphasis given to naturalizing aliens greatly increased the volume of work in
INS offices. We visited five INS district offices and any corresponding Citizenship USA
(CUSA) satellite offices within those districts. Many districts had to relocate their
citizenship units to separate facilities because of the increased resources needed for
CUSA and the increased volume of applicants.
We selected Chicago, Illinois; Los Angeles, California; and Miami, Florida, because
each had a high volume of naturalization work and a CUSA satellite office. We chose Omaha,
Nebraska, and Portland, Oregon, because of the lower volume of naturalization work and
absence of CUSA satellite offices to determine whether the increase in work at a smaller
office caused any additional accountability problems. Chicago, Los Angeles, and Miami had
access to RNACS, and the adjudications service centers performed the preliminary
processing of naturalization applications for these offices. Omaha and Portland had
neither access to RNACS nor to the preliminary processing provided by the adjudications
service centers.
Our methodology included interviews with district, regional, and Headquarters
officials, verification of the receipt of N-550s sent from the forms centers, physical
inventories of the certificates on-hand, and review of any documents available to track
the disposition of those certificates issued or voided. We assessed the adequacy of
records and physical controls used to safeguard the N-550s, and reviewed documentation to
determine whether accountable personnel were screened and trained in security measures, as
required.
During our review period, the Bureau of Engraving and Printing shipped 2.8 million
N-550s to INS forms centers. The five offices we visited received 849,000 certificates, or
nearly one-third of all N-550s shipped. Los Angeles received more than 70 percent of the
849,000 certificates.
We determined whether each district received the number of N-550s sent from the INS
forms center. We then chose a sample of randomly selected certificate numbers at each INS
location to verify their disposition. Our samples were obtained from either forms center
shipping documents, log books at the district, or other reports used in lieu of log books
at each location. Whenever possible, we attempted to identify a certificate number with a
related alien name and A-number. We then sought to verify the disposition of the
certificate.
Our first verification check was CIS. If the certificate number appeared in CIS and
agreed with the alien's name and A-number, our inquiry of that particular certificate
ended. If the certificate number did not appear in CIS, we checked the A-number in RNACS
to determine the alien's status. We then attempted to determine the reasons for any
differences between CIS and RNACS information. For certificate numbers not found in CIS or
RNACS, we conducted searches of other INS records such as court lists, destruction
documents, and A-files to verify disposition.
RESULTS OF THE INSPECTION
The 849,000 certificates sent from the forms centers to our five test offices
between June 1, 1995, and June 1, 1997, were received. However, no district completely
followed the prescribed management controls that are intended to prevent theft or misuse
of these forms. As a result, we could not account for all N-550s because we were unable to
track certificates as they moved from inventory to accountable employees to issuance. In
addition, the lack of documentation prevented us from verifying that all N-550s were
issued or voided as reported.
Inventory Control
AM Section 2117 requires accountable persons to keep a handwritten record in a
permanently bound book, listing each certificate number received and issued. This
procedure is intended to fix accountability by individual and permit tracking of each
certificate through a chain of custody to its final disposition. Inventories are required
to be taken biweekly at the bulk and intermediate storage levels.
Generally, certificates pass through four sequential stages of processing within
districts. First, they are received from the forms center and placed in bulk storage.
Second, they are reissued in smaller quantities on an as-needed basis to a supervisor for
intermediate storage. Third, supervisors give a working supply of blank certificates to
clerks to prepare for the naturalization ceremony. Fourth, certificates are either issued
or voided.
Record Keeping Problems
Four of the five districts did not keep their log books in accordance with the AM. Bulk
inventory records and intermediate issuance records had addition and subtraction errors
made by clerks when accounting for certificates received and issued. In addition,
employees did not maintain the proper chain of custody when transferring certificates
among themselves. At two districts, there were periods that ranged from one month to over
two years when no log books were maintained. Four districts did not conduct the required
biweekly inventories of the certificates on-hand. One of these four districts performed
this function just once a year. Even in those instances where inventories were performed,
most were meaningless because they neither reconciled errors nor reconciled to a
valid prior inventory. Two offices did not conduct a physical inventory when there was a
change of the accountable employee. Finally, none of the districts could verify the
destruction of voided certificates. One district said thousands of certificates were
voided, but could offer no documentary proof that they had been properly destroyed, as
required by the AM.
The current process of keeping bound, handwritten log books is a labor- intensive and
time-consuming process that contributes to the possibility of clerical error. Each
applications clerk records the date, alien's name, A-number, and naturalization
certificate number for each blank certificate that is prepared for issuance. In addition,
supervisors are required to conduct a daily review of the log books and provide evidence
of this review by annotating the log books. The team detected clerical errors in the log
books such as misspelled names, illegible entries, and transposed A-numbers and
certificate numbers. With hundreds of clerks nationwide making hundreds of thousands of
handwritten entries, such errors may be unavoidable.
Because RNACS contains the same information that is recorded in the log books, attempts
have been made by the districts to use RNACS printouts in lieu of log books. Early
attempts at using the printouts proved unsuccessful because RNACS printouts did not
consistently have the names of all applicants being naturalized at each ceremony. However,
one large district we visited is now using the printouts successfully and has nearly
eliminated the maintenance of log books. While the new Security Officer's Handbook allows
the use of computer-style printouts, the older AM Section 2117 has not been revised to
allow their use.
Districts have also attempted to automate some of the other manual and time-consuming
tasks. For example, one district was making a computerized list of voided certificates,
but management controls had not been established to provide an audit trail similar to what
the log books provide. Therefore, changes could be made to the computerized list and not
be detected. The use of more automation, with commensurate management controls, could
offer INS a more streamlined and efficient way to control certificates.
Weak Management Controls Over Requesting and Receiving
N-550s
Management controls over who could request or receive blank certificates from the forms
centers were lax or non-existent. While not required by AM Section 2117, there was no list
of persons authorized to submit a G-504 to the forms centers for certificates, or of those
individuals authorized to receive shipments. An individual having access to G-504s could
request N-550s, and then pick them up in the district when they arrived. Under this
scenario, the forms centers would not question the request, while district officials would
have no knowledge such a request was made and shipment was received.
When asked about the desirability and feasibility of having such controls, managers at
both the forms centers and the districts stated that the use of lists could be implemented
and enforced only if all parties kept them current and accurate. At our exit conference
with INS Headquarters personnel on the first phase of this inspection, Office of the
Inspector General Inspection Report Number I-98-02, the program manager suggested the use
of a dual signature control instead of lists of authorized personnel. With a dual
signature control, both requests and receipts would be initially signed for by persons
occupying a specified position, e.g., supervisory applications clerk, and then
countersigned by a higher level supervisor, e.g., Assistant District Director for
Examinations. We concurred that a dual signature control would offer a greater level of
management control than currently exists.
Operating Procedures
To ensure proper handling of naturalization certificates, the AM requires daily
supervisory verification of log books maintained by employees responsible for preparing
certificates. The supervisor is required to affirm by his/her initials the accuracy,
validity, and legibility of the information recorded in the log book.
In addition to maintaining log books, application clerks must update RNACS in a
timely fashion with pertinent information on an alien's naturalization status, including
the certificate number that will be issued to the alien. If RNACS is not available in the
district office, Records branch personnel must be requested to update CIS because they are
the only personnel authorized to make changes to CIS.
If a certificate is voided, it must be annotated in the log book and destroyed in a
prescribed manner. A destruction document must be prepared that identifies the certificate
by form number and certificate number, includes the date and manner of destruction, and
contains the signatures of the destroyer and a witness to the destruction.
Of the offices visited, not one followed all prescribed operating procedures. At four
of the offices, no evidence of daily verification of log books existed. At all five of the
offices, the RNACS and CIS data bases were neither current nor accurate regarding
naturalization data. At three offices, guidelines were not followed in the proper
recording and destroying of voided certificates.
Data Base Errors
The CIS is the primary data base for inquiring about an alien's status. RNACS only
tracks the status of the alien's naturalization case, from date of application to date of
naturalization. When a naturalization case is closed in RNACS, the coding entry should
trigger an automatic update to CIS, thereby making naturalization information available to
all INS offices. We found, however, that RNACS information was not always updated in CIS.
Because of the volume of work and the time necessary to close a case, naturalization
data may not get into the CIS for months following the granting of naturalization. In
addition, clerical input errors may result in alien-identifying data in RNACS (e.g., name
and A-number) not matching corresponding data in CIS. As a result, CIS will not accept the
update from RNACS. When this happens, an error listing will be generated from INS
Headquarters and transmitted to field locations. However, the error listing will not only
contain the mismatch errors from RNACS, but also contain all the mismatches from all
attempts to match CIS from the various INS data bases. At the offices we visited, computer
managers did not try to separate the mismatches by the various program offices and,
therefore, naturalization program managers stated that they did not receive such error
listings to review and correct. It is important that the CIS be current and accurate.
Should a benefits provider or employer contact INS to verify a person's status, inaccurate
information could result in the denial of benefits or employment.
Conflicting and Inaccurate Guidelines
AM Section 2117 and the Security Officer's Handbook, issued in 1990 and 1997
respectively, provide contradictory or out-dated guidance on handling and safeguarding
N-550s. In the early 1990s, the two forms centers became the only INS components
authorized to request and receive N-550s from the Bureau of Engraving and Printing. The AM
makes no reference to the forms centers. The Security Officer's Handbook incorrectly
directs INS offices to contact the Bureau of Engraving and Printing rather than the forms
centers to acquire N-550s.
The Security Officer's Handbook also incorporates policy changes made since 1990.
Essentially, it places responsibility for overseeing the implementation and administration
of the N-550 program on security officers under the jurisdictions of district directors,
officers-in-charge, and service center directors. The handbook fails to address the role
of regional directors in implementation responsibilities, including the 1990 AM
requirement of annually requesting a memorandum from the district director affirming
his/her district's conformity with the provisions in AM Section 2117. The handbook also
fails to address the 1990 AM audit requirements placed on the region. The AM needs to be
updated, and the AM and the Security Officer's Handbook need to be in agreement.
Physical and Personnel Security
AM Section 2117 provides a detailed description of how N-550s and log books should be
stored. The degree of security required depends on the volume of forms or log books being
safeguarded. Large bulk inventories should be stored in a vault or in office spaces with
each door equipped with a high security, long-throw dead bolt lock. For intermediate
storage, a metal cabinet or an individual drawer in a metal filing cabinet or safe should
be used, and secured by a built-in three-position combination lock or a lock-bar and
combination padlock approved by the General Services Administration.
Accountable employees should have sole access to the safe or cabinet where they store
N-550s. Combinations must be changed annually, whenever there is a change in the
accountable employee, or when security has been breached. Combination numbers and
extra keys should be left in the security officer's custody, and kept in sealed, opaque
envelopes.
AM Section 2117 requires that all persons authorized access to blank secure forms be in
a position designated as, at a minimum, non-critical sensitive, and receive an appropriate
personnel security investigation. The completion of a Limited Background Investigation on
such personnel is required. The Department of Justice has granted INS the authority to
allow applicants to enter on duty prior to full completion of that investigation. However,
before entering on duty, INS must conduct a credit check, a Federal Bureau of
Investigation fingerprint check, and verify employment and personal references by
telephone.
In addition to the background investigation requirements, INS must have written
evidence that accountable employees have been properly appointed and trained in handling
secure documents. The written evidence consists of an Accountable Employee Certification
signed by the employee and the principal officer of the location,
usually the district director or officer-in-charge. The district director is also required
annually to affirm in writing that the district is in compliance with AM Section 2117.
Security Needed Some Improvement
Physical security measures at the five districts reviewed were generally in compliance
with requirements but still needed some improvement. At two districts, the room holding
the bulk inventory supply did not fully meet security requirements. In addition, two
districts were not complying with the requirement that combination locks be changed
annually.
In four districts, background investigation requirements were correctly followed. All
applications clerks and others handling the naturalization certificates were in positions
designated as, at least, non-critical sensitive. Furthermore, we determined from the INS
Personnel Security System (PERSECS), supplemented by a review of individual personnel
security files, that the required pre-employment checks and subsequent limited background
investigations were initiated before employees entered on duty. PERSECS should include the
name, entry on duty date, level of clearance, and date of checks or background
investigation, for any employee for whom a clearance was initiated. However, because the
information in PERSECS relating to employee clearances frequently was incomplete or
out-of-date, a review of individual files was necessary. In one district, one warehouseman
who handled certificates occupied a position that was not generally classified as needing
a background investigation. Therefore, no background investigation had been completed.
Lack of Formal Training for Employees
Few employees received the formal training necessary to comply with the requirements
contained in AM Section 2117. At only one district did employees sign the Accountable
Employee Certification document, but no employee interviewed at that district stated that
he/she actually received the necessary training or that he/she had a copy of AM Section
2117. District security officers in all five offices visited stated they did not offer
formal training to any applicable employee, nor could they document that anyone else
provided employees with appropriate training. Adequate training is essential for
accountable employees because the Security Officer's Handbook states that accountable
employees may be subject to disciplinary action if they fail to properly account
for secure forms under their control.
Independent Audits and Oversight
The AM directs several levels of management to periodically review inventory stock and
control procedures. Specifically, it requires that biweekly physical inventories be taken
of blank certificates, and that the person taking the inventory must do whatever a prudent
person would do to be satisfied of the actual existence of the secure forms comprising the
inventory. AM Section 2117 also requires Headquarters Security and Examinations employees
to audit inventory controls and take physical inventories of secure forms during visits to
field offices.
The regional offices are required annually to review inventory controls and conduct
physical inventories at field offices. Regional offices should also provide, at least
annually, each district director and officer-in-charge with three randomly selected serial
numbers for each type of secure form issued to their respective offices. District
directors and officers-in-charge are then required to verify the receipt and disposition
of these randomly selected forms.
Since June 1, 1995, only one of the five district directors submitted the required
annual statement to the regional director affirming that his/her district adhered to the
procedures outlined in AM Section 2117. This annual statement was for 1995. In addition,
none of the offices visited had been audited by a regional or Headquarters program unit
since June 1995.
Although not specifically mentioned in the AM, INS' internal review group, called
INSpect, includes a review of accountable documents in their cyclical inspections of
district offices. However, none of the offices we visited had been inspected by this
internal group during our review period.
Sample Summary
In order to determine the number of certificates available for issuance in the five
districts during our review period, we started with the number of N-550s on-hand in the
five districts as of June 1, 1995. We added the number of certificates received from the
forms centers during our review period, and then subtracted the inventory on-hand at the
time of our visit. Based on this calculation, the five districts had a combined total of
665,377 certificates available for issuance during our review period.
From the number of N-550s available for use at each of the five locations (universe),
we randomly selected certificate numbers to verify the disposition of each certificate at
that location (sample size). Because the offices did not maintain their records in
a similar manner, we selected our sample of certificate numbers from various documents
such as forms center shipping documents, log books, or other reports used in lieu of log
books.
After selecting our sample of certificate numbers, we used log books, where possible,
to associate an alien name and A-number with the certificate number. We then checked
certificate numbers in CIS. If we found the certificate number in CIS, and if the alien's
name and A-number matched, we accepted the CIS record as evidence that the certificate had
been issued and accounted for properly. If the certificate number was not in CIS, we
attempted to obtain additional information from RNACS. If verification was not possible
from either of these automated systems, we tried to find evidence that the certificate had
been issued from whatever relevant INS records were available, such as court lists and
A-files. We were unable to verify the disposition of some certificates because: (1) we
could not always obtain an A-number, (2) court lists were not always kept in a usable
format, and (3) some A-files were not available. Consequently, disposition for 140
certificates of 3,084 sampled remained unverified (unverified).
Within our samples, when log books indicated that a certificate was voided, we tried to
find evidence that the certificate was actually voided and destroyed. We did not find the
required supporting documentation for 95 cases (unconfirmed voids).
Table 1 summarizes the disposition of the samples that we selected at each location. A
detailed analysis of how the sample at each location was selected, the documentation
checked, and projections, if any, that can be made, is contained in the appendices.
TABLE 1
SAMPLE AND DISPOSITION SUMMARY
Office
(Appendices)
Universe
Sample
Size
Unverified
Unconfirmed
Voids
Miami (I)
149,981
990
0
0
Chicago (II)
84,828
490
54
15
Omaha (III)
4,525
180
1
0
Portland (IV)
11,473
424
68
41
Los Angeles (V)
414,570
1,000
17
39
TOTALS
665,377
3,084
140
95
Source: OIG Analysis from INS Data
We did not select an identical sample size at each location. The records available, how
they were maintained, and the number of people handling certificates all influenced the
determination of our sample size. The more records available at an office and the manner
in which they were maintained made a significant difference in verifying the disposition
of certificates. For example, Miami generally kept records in accordance with
requirements. As a result, we were able to verify disposition of all certificates. On the
other hand, for offices like Chicago and Portland that did not keep adequate records, we
were unable to verify disposition of all certificates. How well records were maintained
also determined our ability to confirm voided certificates.
CONCLUSION
Management controls in place were inadequate to account for all certificates. Officials
in all locations cited the pressures of rapidly increasing naturalization workloads, and
the reality of frequently meeting these increases with inexperienced, short-term employees
as reasons for not following all procedures. In response to the increased workloads, the
districts adopted many shortcuts and ad hoc procedural changes. In most of the
offices, reliance on a combination of automated and manual record systems, which were not
always compatible, made it difficult to track or determine the disposition of every N-550.
In theory, if all the controls described in AM Section 2117 are fully, consistently,
and uniformly followed, the control and accountability over certificates would be
significantly increased. However, without a secure and reliable automated system to match
certificate numbers, from the Bureau of Engraving and Printing through issuance to the
person naturalized, and to verify certificate numbers in CIS, it will remain nearly
impossible to fully account for the million certificates issued annually. As long as INS
continues to use error-prone, handwritten log books--many containing thousands of
incomplete and barely legible entries--the possibility for unintentional error or fraud
will exist.
By law, INS is required to provide the naturalization applicant a Certificate of
Naturalization at the time of the naturalization ceremony. Therefore, INS must maintain a
high level of security over this valuable document. By seeking legislative changes, INS
could eliminate or reduce the risk of having certificates stolen or misused. For example:
If the N-550 were eliminated as proof of citizenship, the need for security would be
eliminated. However, another document would have to replace it such as something similar
to the alien registration card.
If N-550s were mailed to applicants after the naturalization ceremony, INS could
diminish the movement of certificates among employees during the applicant process, and
reduce the number of certificates needing to be voided because of cancelled ceremonies and
no-shows. The consequence of mailing would be increased costs for postage.
If N-550s were mailed from one centralized location, INS could reduce the work in
district offices and maintain better control at the centralized location. Again, INS would
incur additional costs for postage.
Seeking legislative changes to reduce the risk for theft and misuse of N-550s may be a
viable solution, but it will be a time-consuming process. INS needs to immediately gain
control over N-550s to ensure they are accounted for and safeguarded. Regardless of the
process used, INS will have to properly maintain accountability records, conduct periodic
inventories and audits, perform daily supervisory reviews, and properly void/destroy
unusable N-550s.
Recommendations
We recommend that the Commissioner, Immigration and Naturalization Service, take action
to:
Provide adequate training for personnel accountable for N-550s.
Update AM Section 2117, and ensure that the Security Officer's Handbook is in agreement
with the AM.
Determine the appropriate time interval for periodic inventories and audits, and ensure
they are correctly conducted.
Correct mismatch errors between RNACS and CIS, for those offices with access to RNACS,
so that current naturalization data is included in CIS.
Directly update CIS, for those offices without access to RNACS, with naturalization data
to ensure CIS is accurate and current.
Eliminate the current manual and time-consuming process of controlling N-550s through
the use of handwritten log books by developing automated systems and processes with the
appropriate management controls to ensure certificate accountability.
Determine the disposition of the 140 unverified certificates and the 95 unconfirmed
voids found during the review.
Assess the risk of theft or misuse for the projected numbers of unverified certificates
and unconfirmed voids to determine whether further investigation is warranted.
#####